              MANAGEMENT OF CONTRACTS FOR
                F110 ENGINE PROCUREMENTS


Report No. D-2001-094                   April 4, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline @dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACO                   Administrative Contracting Office
CY                    Calendar Year
DCMC                  Defense Contract Management Command
DCM GE                Defense Contract Management General Electric
GEAE                  General Electric Aircraft Engines
IPE                   Improvement Performance Engines
PCO                   Procurement Contracting Office
                       Office of the Inspector General, DoD

Report No. D-2001-094                                                  April 4, 2001
  (Project No. D2000CF-0276)

        Management of Contracts for F110 Engine Procurements

                                Executive Summary

Introduction. This audit was performed in response to an allegation to the Defense
Hotline that the Wright-Patterson Air Force Base Procurement Contracting Office made
poor procurement decisions on F110 aircraft engine contracts. The allegation also
stated that as a result of the Procurement Contracting Office failure to monitor the
contract clauses, Government funds were not collected in a timely manner. The
contracts relating to the allegation valued at $7.5 billion, were awarded during calendar
years 1984 through 1998. The total amount of money that was identified as not
collected in a timely manner was approximately $50 million. The Administrative
Contracting Office, Defense Contract Management Agency at the General Electric
Aircraft Engine plant in Cincinnati, Ohio, was responsible for contract administration
functions after contract award.

Objectives. Our overall objective was to determine whether the allegation to the
Defense Hotline had merit. Specifically, we determined whether procurement officials
properly managed the contracts for F110 engine procurements and whether
overpayments due to the Government were recouped. See Appendix A for a
discussion of the audit process and the review of the management control program.

Results. We partially substantiated three of the five issues in the allegation to the
Defense Hotline. The procurement and administrative contracting office personnel did
not adequately manage and monitor certain clauses in contracts for F110 aircraft
engines. As a result, the contracting officials were unaware of events that impacted
contract performance, and funds owed to the Government were not collected in a timely
manner. DoD lost the use of more than $50 million for other priorities and also lost the
opportunity costs associated with this money, which we calculated at approximately
$5.5 million. For details of the audit results, see the Finding section of this report.
Also, see Appendix B for a summary of each issue in the allegation and our audit
results.

Summary of Recommendations. We did not make any recommendations in the draft
report because the Procurement and Administrative Contracting Offices initiated
definitive corrective actions that should preclude the problems from recurring.
However, we are making a recommendation in the final report to request a voluntary
payment of lost interest cost from the contractor.

Management Comments. The Defense Contract Management Agency further clarified
its position on several issues. The Defense Contract Management General Electric has
implemented several policies and procedures since the issuance of the draft report to
preclude late adjustments when contracts contain a special adjustment clause.
Further, negotiations with General Electric Aircraft Engines were completed in January
2001 and the Government will be reimbursed $1.05 million from the contractor. See
the Finding section of the report for a discussion of the management comments and the
Management Comments section of the report for complete text of the comments.

Audit Response. We revised information in the report as suggested by the Defense
Contract Management Agency. We also commend management on their additional
actions to prevent late adjustments on contracts with special adjustment clauses. We
request that the Defense Contract Management Agency provide comments on the added
recommendation by June 4, 2001.




                                          ii
Table of Contents

Executive Summary                                             i

Introduction
     Background                                               1
     Objectives                                               2

Finding
     Contract Administration                                  3

Appendixes
     A. Audit Process
         Scope and Methodology                               11
         Prior Coverage                                      12
     B. Summary of Allegation and Audit Results              13
     C. Summary of Overpayments and Lost Opportunity Costs   16
     D. Report Distribution                                  19

Management Comments
     Defense Contract Management Agency                      21
Background
    The audit was conducted in response to an allegation to the Defense Hotline that
    the Procuring Contracting Office (PCO) at Wright-Patterson Air Force Base
    (WPAFB) had mismanaged Government funds involving F110 engine
    procurements, which cost the Government millions of dollars. A summary of
    the five issues included in the allegation are as follows:

         •   inaction on contract clause H-053 on contract F33657-88-C-2189,

         •   exclusion of commercial/direct foreign engines from fixed-cost
             allocation on contracts F33657-94-D-2000 and F33657-98-D-0019,

         •   tardiness in recouping overpayments on contracts F33657-84-C-2011
             and F33657-94-D-2000,

         •   inaction on contract clause H-001 on contract F33657-94-D-2000, and

         •   overpricing on a competitive basis and poor procurement decisions on
             contracts F33657-88-C-2189 and F33657-98-D-0019.

    According to the allegation, as a result of inadequate oversight of contract
    clauses, the Government had not collected adjustments in a timely manner, and
    in some cases, failed to collect the amounts that were owed. The complaint did
    not allege that the Administrative Contracting Office (ACO) had committed any
    errors. The four contracts we reviewed were for the purchase of General
    Electric F110 aircraft engines valued at $7.5 billion. The contracts were
    awarded during the CYs 1984 through 1998.

    Wright-Patterson Air Force Base Propulsion Development System Office.
    The Propulsion Development System Office is part of the Aeronautical System
    Center (ASC) at WPAFB and will be referred to as the Procurement Contracting
    Office (PCO). The PCO reports to the designated acquisition commander (the
    commander) in Oklahoma City, Oklahoma. The commander acquires and
    supports F-15, F-16, and B-2 aircraft engines. The commander is also
    responsible for the Component Improvement Program, which oversees safety of
    flight, and the reliability and maintainability of the engines. The PCO at the
    Propulsion Development System Office purchased engines for the commander.
    As part of its contract management, the PCO delegated contract administration
    duties to the Defense Contract Management Office at the GE Aircraft Engine
    (GEAE) Plant, which produced the F110 series engines.

    Defense Contract Management Agency. The contract administration office at
    General Electric in Cincinnati, Ohio, (DCM GE) reports to the Defense
    Contract Management District East, Boston, Massachusetts, one of two districts
    immediately subordinate to the Defense Contract Management Agency
    headquarters at Fort Belvoir, Virginia. DCM GE performs on-site
    administration of Government contracts awarded to GE aircraft engines and
    provides services to the cognizant Government PCO and to the contractor. The
    DCMA office was known as DCMC, prior to March 2000.


                                        1
Objectives
     The overall objective was to determine whether the allegation to the Defense
     Hotline had merit. Specifically, we determined whether procurement officials
     properly managed the contracts for procurement of F110 engines and whether
     overpayments due the Government were recouped. See Appendix A for a
     discussion of the audit process and the review of the management control
     program.




                                        2
            Contract Administration
            Personnel in the PCO and DCM GE offices did not adequately manage
            and monitor contracts for General Electric F110 aircraft engines. This
            situation occurred because these offices lacked coordination, and
            procedures were not in place to review contract clauses during the period
            of performance. As a result, contracting officials were unaware of
            events that impacted contract performance, and funds owed to the
            Government were not collected in a timely manner. The DoD allowed
            more than $50 million to go uncollected for varying periods of time, and
            lost opportunity costs (interest) were calculated at approximately $5.5
            million.

Administration Responsibilities
     FAR Criteria. FAR 1.602-2, "Responsibilities," states:

                Contracting officers are responsible for ensuring performance of all
                necessary actions for effective contracting, ensuring compliance with
                the terms of the contract, and safeguarding the interests of the United
                States in contractual relationships. In order to perform these
                responsibilities, contracting officers should be allowed wide latitude to
                exercise business judgment.

     FAR 42.202, "Assignment of Contract Administration," states:

                Contracting officers may delegate contract administration or
                specialized support services, either through interagency agreements or
                by direct request to the cognizant Contract Administration Office
                (CAO).

     FAR 42.302, "Contract Administration Function," states that one of the contract
     administration functions was to:
                Analyze quarterly limitation on payments statements and recover
                overpayments from the contractor.

Monitoring Contract Oversight
     Oversight on Contract Clauses. Contracting officials did not adequately
     monitor contract clauses that required close oversight and adjustments or actions
     during the contract period. Neither the procurement contracting office nor the
     administration office ensured contract performance for six contract clauses on
     three contracts within the terms of the contracts.




                                               3
Contract F33657-84-C-2011. The Government delivered 112 engines to
Turkey during CYs 1990 through 1994. Twenty-four engines were delivered in
1990, 24 in 1991, 27 in 1992, 33 in 1993, and 4 in 1994. The engines
delivered to Turkey were in accordance with coproduction clause H-053, which
states the following.

           An adjustment to the contract price may be necessary to recognize
           special costs incurred, or savings realized: for the Assembly,
           Inspection and Test (AIT) of engines delivered in Turkey under CLIN
           0050; for box, pack, ship, and transportation of engine kits required
           for coproduction in Turkey; and for the selected F110 engine parts
           coproduced with Turkey.

The Government was to adjust the contract price for the engines delivered in
Turkey based on the H-053 clause. The contract did not specify which office
was responsible for monitoring and enforcing the clause and did not specify
when to make the adjustments. However, DCM GE was responsible for
monitoring the movement of work from one location to another and would have
been in the best position to monitor the contract requirement. This failure to
monitor the clause went undetected until June 1998 when DCM GE discovered
the oversight and notified the PCO of the need to determine whether the
adjustments were necessary. The contract did not specify an adjustment
method. When the PCO decided to use actual costs as criteria for the
adjustment, this lengthened the time for recoupment because of delays in
subcontractor audits and final overhead negotiations. As a result, the DCM GE
lack of oversight caused a 7-year delay on initiation of action on the contract
clause.

In June 1998, GE proposed a refund of $6,027,000 to the Government for
adjustments under the contract clause. The proposal was changed to $6,871,760
after corrections. In March 2000, GE reimbursed the Government the entire
amount of the adjustment.

Contract F33657-88-C-2189. In CYs 1993 and 1994, Improvement
Performance Engine (IPE) sales were made on two other contracts. One was a
Japanese contract and the other was a follow on to contract F33657-88-C-2189.
Contract clause H-053 requires that sales on other contracts were to be
considered when determining engine prices. Clause H-053 states the following
information.
           The contractor agrees that if any IPE engines are sold pursuant to a
           contract other than this contract, then the contractor shall, for the
           purpose of determining engine prices under this contract, combine
           those engine quantities with the total quantity of engines acquired
           under this contract and afford the Government an equitable downward
           adjustment in contract price.

However, neither the PCO nor DCM GE offices were aware of the need to
adjust this contract, and their inaction on this clause was undetected until
January 1999, when DCM GE became aware of the need. Although, the
contract did not specify the Government agency that was responsible for


                                        4
monitoring and enforcing the terms and conditions of the contract, both the PCO
and DCM GE agreed that this was part of the DCM GE duties. The PCO
accepted some responsibility for not being aware of and asking DCM GE about
adjustments to the clause. The clause also did not state when the adjustment
should be made. However, it was expected that the adjustment would occur
within a reasonable period of time after the other engine sales were completed.
In this case, the adjustment was necessary at the beginning of CYs 1994 and
1995, but no action was taken and the problem wasn’t discovered for
approximately 5 years.

Once the inaction was discovered, DCM GE began the process of collecting an
equitable adjustment; however, internal disputes within DCM GE and contract
clause interpretation differences with the contractor resulted in 14 additional
months passing without resolution, until the DCM GE attempted to issue a final
decision. In March 2000, the PCO became actively involved. The PCO
requested and obtained a legal opinion that provided an interpretation of the
clause. The legal review found merit for including the engines sold to the
Japanese and an equitable adjustment was determined. However, the adjustment
did not include the engines purchased under the follow on contract. In addition,
although the contract clause requires the contractor to combine other engines
with engines from this contract to afford the Government an equitable
adjustment, the contract did not specify a basis for making an equitable
adjustment. Negotiations were completed in January 2001 and the Government
will receive $1.05 million from GE.

Contract F33657-94-D-2000. Contracting officials did not closely monitor four
different contract clauses on contract F33657-94-D-2000 that required actions
during the period of the contract.

       Clause H-001. An international agreement was established in October
1975 between the United States, and the Governments of Belgium, Denmark,
the Netherlands, and Norway relating to the procurement and production of the
F-16 aircraft. In accordance with the international agreement, sales to third
world countries shall incorporate a premium in the price for coproduction
commitments of aircraft. Clause H-001 states the following information.
           Each Foreign Military Sales (FMS) F-16 install engine price in the
           pricing matrices contains $132,000 to cover the premium for both
           direct and alternated offset required by H-012, Coproduction. If the
           international agreement mandating the use of this clause is eliminated
           or altered during the term of this contract, then the applicable FMS
           customers will be entitled to a mutually agreeable equitable
           adjustment in unit price, if such elimination or alteration results in a
           decrease in the cost of performance of any part of the work.

In 1996, as part of a compliance review to determine whether GEAE was
meeting coproduction commitments, DCM GE determined the international
agreement was altered significantly on October 26, 1994. The adjustment was
not placed into the contract until October 25, 1996, 2 years after the revised
agreement was signed. From 1994 through 1996, 98 engines were sold and
subjected to potential adjustments in contract price since the altered agreement


                                         5
eliminated the $132,000 premium. The PCO regularly interacted with the F-16
program office and was in the best position to determine that the international
agreement changed. However, the PCO was unable to provide an adequate
explanation for the 2-year delay in recognizing this clause. The PCO also
should have requested a cost impact analysis to determine whether the contractor
was required to provide an equitable adjustment for the 98 engines. Any
adjustment would have been due back to the foreign Government involved in the
purchase of aircraft.

       Clause H-003. In CYs 1995 and 1996, 129 F110-GEAE-100 and
F110-GEAE-129 engines were assembled in Strother, Kansas. Because the
engines were assembled in Strother, Kansas, instead of Evendale, Ohio, the
Government was entitled to price adjustments. Clause H-003 states the
following information.

           The Contractor’s engine prices are predicated on assembly,
           inspection, and test (AIT) at the General Electric plant located at
           Evendale, OH. In the event engine AIT is moved to the Strother, KS
           plant, the Government shall be entitled to a downward price
           adjustment per engine for the affected engines, this pertains to the
           F110-GE-100 and F110-GE-129 Engines.

The contract did not specify whether the PCO or DCM GE was responsible for
monitoring and enforcing the clause and did not specify when the adjustment
should have been made. DCM GE was responsible for monitoring work,
providing onsite surveillance, and would have been in the best position to track
this contract requirement.

DCM GE determined the Government was entitled to $18.7 million in contract
clause adjustments. The PCO collected $10.3 million in FYs 1996 and 1997 for
sales from FYs 1995 and 1996 that were to places other than Turkey. The
collections for these two periods were made 14 and 16 months later than the
sales occurred, which resulted in lost opportunity costs of approximately
$748,000. The adjustment for engine sales to Turkey went undetected until
October 1998 when DCM GE noticed the oversight and notified the PCO. In
March 2000, the additional $8.4 million was collected for Foreign Military
Sales to Turkey during FYs 1995 and 1996.

The lost opportunity costs for these delayed collections amounted to $2.3
million. The specific time periods and details of the computations are detailed
in Appendix C.

       Clause H-005. In CYs 1995 through 1998, there were 210 scheduled
engine deliveries for DoD, European Participating Group, and Foreign Military
Sales customers under this contract clause. Clause H-005 states the following
information.

           At the end of each calendar year ordering period covered by this
           contract (except for CY94 engine deliveries), the Administrative
           Contracting Officer (ACO) shall adjust the order for AFEs and IPEs
           to reflect the total quantity of engines ordered for delivery in each



                                        6
               subsequent CY using the Price/Quantity Matrix, Section J, ATCH 2.
               This adjustment shall be based on the total contractually scheduled
               deliveries for each CY for Department of Defense (DoD), European
               Participating Group (EPG) and Foreign Military Sales (FMS) engines
               ordered under this contract.

    The DCM GE was responsible for making the adjustments as specified by the
    contract clause. The adjustments were made as required, however, they were
    not collected in a timely manner. A reasonable period of time to make the
    adjustments should have been no later than 3 months after the end of the year.
    The adjustments were collected from 1 to 15 months later than required for the
    four periods involved.

    The DCM GE determined the Government was entitled to $23.4 million for
    adjustments under the contract clause and the money was recouped; however,
    since the collections were not timely, DoD lost the use of this money for other
    operational priorities with an associated lost opportunity cost of $526,154.

           Clause H-035. In CYs 1994 through 1998, 97 engines were assembled
    in Turkey. Since the engines were assembled in Turkey instead of Evendale,
    Ohio, the Government may have been entitled to a price adjustment for the
    engines. Clause H-035 states the following information.

               The pricing of engines to be provided on the contract is based on
               pricing identified in Special Provision H-005 ‘Price/Quantity Matrix’
               for FMS procurements. Adjustments to the contract price may be
               necessary to recognize special costs incurred or savings realized (e.g.
               costs under CLIN 0052 for the Assembly, Inspection, and Testing
               (AIT) of F110-GE-129 engines produced at TEI for the TUAF as part
               of the POII engine production effort. This effort includes boxing,
               packing, shipping and transportation etc., of engine kits required for
               the TEI co-production effort).

    The contract did not specify which contracting office was responsible for
    monitoring and enforcing the clause. The contract did not specify the time or
    method for any adjustment. DCM GE was responsible for monitoring work and
    providing onsite surveillance and could have tracked this contract requirement.
    DCM GE was aware of the need for possible action on the clause in October
    1998.

    The DCM GE determined that the Government was entitled to $1.2 million for
    adjustments under the contract clause. In March 2000, the PCO collected $1.1
    million in adjustments owed to the Government. As a result of the delayed
    recovery, DoD lost the use of this money for other operational priorities with an
    associated lost opportunity cost of $101,870.

Coordination and Control
    Contracts were not adequately managed and monitored because there was no
    formal coordination between the PCO and the DCM GE on defined duties. In


                                             7
     addition, these offices did not have procedures in place to ensure that special
     clauses were reviewed in a timely manner and that appropriate actions were
     taken when required.

     Formal Coordination. The contract clauses lacked clarity and did not delineate
     duties. Only one clause clearly explained that the DCM GE was responsible for
     the action. Clauses did not specify which office was responsible for adjustments
     or methods for making them. Formal and regular coordination was essential to
     ensure that responsibilities on special clauses were clear and that actions were
     performed. However, there were no written procedures to delineate work or to
     coordinate activities. In addition, there were no regular scheduled meetings
     between the PCO and DCM GE to address management and surveillance
     requirements on these contracts.

     Standard Controls. The PCO and DCM GE did not have adequate controls in
     place to ensure that personnel were aware of special clauses that might require
     action or adjustments during the contract period. There were also no
     procedures or mechanisms in place to alert the PCO and DCM GE of potential
     situations that required action on the contract.

Timeliness of Collections
     The lack of monitoring and management resulted in more than $50 million being
     left unrecovered for periods as long as 9 years. We computed lost interest or
     opportunity costs of $5.4 million, for the outstanding amounts. The complete
     schedule of late recoupments and the time periods involved are detailed in
     Appendix C.

Management’s Corrective Action
     We did not make any recommendations in the draft report because the PCO and
     DCM GE realized the need for better coordination and stronger controls and
     began implementing corrective actions. The PCO and DCM GE implemented
     the following corrective actions.

                1. Reimplementation of post award conferences between the
     Propulsion Office, DCM GE, and the contractor after award of new contracts.
     These conferences will have representatives from contracts, finance, the
     Program Management Offices, DCM GE, and the contractor. The purpose of
     the conference is to review all aspects of the contract and ensure all parties are
     aware of their administrative responsibilities. This will help eliminate any
     oversight problems of contract provisions which require adjustments.

                2. The Aeronautical System Center/Propulsion Development
     Systems Office will conduct quarterly meetings between the Propulsion Office
     and DCM GE to discuss issues and upcoming contract actions. During these
     meetings, discussions will include: status, planning, and schedules on all open
     adjustments actions/provisions.



                                          8
            3. A computerized suspense system has been established in the
Aeronautical System Center/Propulsion Development Systems Office. Each
year, an automatic electronic suspense will be provided to the buying office
contracting officers to review all open contracts. A report will be provided to
the Propulsion Development Systems Office management on open contract
action status and completion schedules.

             4. DCM GE conducted training with ACOs and contract
administrators on October 25, 2000, to emphasize the need to properly identify
special contract clauses. DCM GE will ensure that a review is completed upon
initial receipt of the contract.

           5. DCM GE has established a standard procedure to identify those
contracts containing adjustment provisions in the automated database system as
fixed-price redeterminable so that an automatic list of contracts with a special
adjustment clause will be generated.

            6. DCM GE will conduct post-award conferences with the major
engine Supporting Program Office (SPO) to discuss the clauses and the office
that will be responsible for monitoring and enforcing the clauses for compliance.

           7. DCM GE has established and implemented an annual suspense
system to extract a list of contracts from the automated database system to verify
that annual adjustments are being made.

           8. DCM GE has established quarterly meetings with personnel at
Wright Patterson Air Force Base, Ohio, to review actions being taken and
compare listings of contracts requiring adjustments. In addition, they also
established suspense tracking in their Outlook System and has agreed to share
information with DCM GE at the appropriate time.

In addition, a draft Memorandum of Agreement was proposed between the
Oklahoma City Air Logistics Center - Propulsion Program Organization at
Tinker Air Force Base, Oklahoma; Aeronautical Systems Center – Propulsion
Development System Office at Wright Patterson Air Force Base, Ohio; and,
DCM GE Aircraft Engines, Contract Management Office, Cincinnati, Ohio.
The agreement establishes the relationship between the Contract Management
Office, and the F110 Program Offices at Tinker, and Wright Patterson Air
Force Bases in support of the F110 engine programs. The agreement outlines
the functions and responsibilities of the Contract Management Office which
add, modify, or clarify the standard functions outlined in FAR 42.302(a). The
agreement assigns individual and specific task responsibilities to program offices
and contract management office personnel. However, each organization is
responsible to support the other in providing data and manpower, as required.
The organization assigned the responsibility for a task will be accountable for its
successful accomplishment, work directly with the contractor on that task, and
coordinate its effort with the other organization.




                                     9
Management Comments and Audit Response
    Management Comments. The Defense Contract Management Agency stated
    that some minor revisions were needed. In addition, the agency stated that the
    report should indicate that negotiations by DCM GE were completed in January
    2001, and the Government will be reimbursed $1.05 million from General
    Electric. Also, the DCM GE has implemented several policies and procedures
    since the issuance of the draft report to preclude late adjustments when contracts
    contain a special adjustment clause.

    Audit Response. We revised the report as suggested by the Defense Contract
    Management Agency. We also commend management on their additional
    actions to prevent late adjustments on contracts with special adjustment clauses.

Recommendation
    Added Recommendation. As a result of management comments, we added a
    Recommendation to request a voluntary payment of lost interest from the
    contractor. We request that the Defense Contract Management Agency provide
    comments on the added Recommendation by June 4, 2001.

    We recommend that the Director, Defense Contract Management Agency
    request a voluntary payment of lost interest from the contractor.




                                        10
Appendix A. Audit Process

Scope and Methodology
    Work Performed. Our audit focused on procurement actions and
    administrative responsibilities of the PCO at Wright Patterson AFB, Ohio, and
    DCM GE in Cincinnati, Ohio. We interviewed administrative, contracting, and
    technical personnel at the audit sites. We reviewed four contracts valued at $7.5
    billion. The procurement actions reviewed were from CYs 1984 through 1998.

    Limitations to Scope. Because our objectives were limited to allegations
    related to specific contracts, we did not include a review of the management
    control program beyond the issues related to our objective.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following objectives and goal, subordinate performance goal, and performance
    measure.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the
             force by exploiting the Revolution in Military Affairs, and reengineer
             the Department to achieve a 21st century infrastructure. (01-DoD-02)

           • FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
             infrastructure by redesigning the Department’s support structure and
             pursuing business practice reforms. (01-DoD-2.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

    Use of Computer–Processed Data. We did not rely on computer-processed
    data to achieve the audit objectives.

    Audit Type, Period, and Standards. We performed this economy and
    efficiency audit from October through November 2000 in accordance with
    auditing standards issued by the Comptroller General of the United States as
    implemented by the Inspector General, DoD.




                                       11
    Contacts During the Audit. We visited and contacted individuals and
    organizations within the Wright Patterson AFB Propulsion Development System
    Office and the Defense Contract Management Agency. Further details are
    available upon request.


Prior Coverage
    Air Force Audit Agency, Project No. 99061005, “F110-GE-100 Spare Engine
    and Upgrade Requirements,” January 12, 2000.




                                     12
Appendix B. Summary of Allegation and
            Audit Results
The summary of the allegation issues to the Defense Hotline and our audit
results are discussed in the following paragraphs.

Issue A. Procurement officials failed to monitor contract clause H-053 on
contract F33657-88-C-2189, and, therefore did not make the required
adjustments to the contract as required by the clause. Clause H-053 states,
“The contractor agrees that if any IPE engines are sold pursuant to a contract
other than this contract, then the contractor, shall, for the purpose of
determining engine prices under this contract, combine those engine quantities
with the total quantity of engines acquired under this contract and afford the
Government an equitable downward adjustment in contract price.” Because of
inaction on clause H-053, the Government has not received an equitable
adjustment for CYs 1993 and 1994.

Audit Results. We partially substantiated Issue A. While the PCO assumed
some of the blame, the majority of the fault rested with the DCM GE. The
DCM GE failed to properly monitor engine sales, and, did not take timely
action to receive an equitable downward adjustment owed to the Government.
GEAE had three IPE engines sales directly to Japan during CYs 1993 and
1994. Since there were other IPE engines sold on contracts other than this one,
the Government should have received an equitable adjustment in both 1993 and
1994. This problem was first discovered in January 1999 by DCM GE. The
DCM GE had computed equitable adjustments of $1,861,892 for the three
engine sales. However, GEAE proposed only $260,772 in adjustments.
Negotiations between the DCM GE and GEAE were ongoing as of December
2000.

Issue B. Procurement officials excluded commercial/direct foreign engines
from fixed-cost allocation on contracts F33657-94-D-2000 and
F33657-98-D-0019. The H-053 contract clause on contract F33657-88-C-2189
was incorporated in contract F33657-94-D-2000 under clause H-005. The
H-005 clause did not include a provision for including the commercial and
direct foreign engine sales of F110 engines in the contract. As a result, the
Government overpaid $5,851,140 during the period 1995 to 1999. These
overpayments occurred because the engine sales to the commercial and direct
foreign entities did not pay their fair portion of the fixed expenses loaded into
the pricing matrix. Contract clause H-007 on contract F33657-98-D-0019 also
excluded commercial and direct foreign engine sales from the contract.

Audit Results. We found no merit to Issue B with respect to contract
F33657-98-D-0019. This contract was awarded based on competition and as a
result, the contractors would propose costs based on a competitive environment
and the Government would not negotiate or be privy to all of the elements of
their pricing. On contract F33657-94-D-2000, while there may be merit to the
allegation that not all fixed costs were allocated to direct foreign and
commercial sales, the exclusion of these sales from the allegation of direct


                                   13
tooling was part of the negotiation consideration and was a judgmental call by
the contracting officer. Overhead allocation did include direct foreign and
commercial sales in the base for allocating these costs.

Issue C. Over the last 10 years, procurement officials knowingly overpaid the
contractor and procrastinated on the recoupment of the overpayments. There
are two known instances of this occurring that resulted in lost opportunity
costs. In the first instance, the PCO procrastinated in recouping $16,451,762
from clause H-053 of contract F33657-84-C-2011 and clauses H-003 and
H-035 from contract F33657-94-D-2000. In the second instance, the PCO
procrastinated in recouping $30,829,763 on clauses H-003 and H-005 from
contract F33657-94-D-2000. The total lost opportunity cost from the
procrastination was $7,785,440.

Audit Results. We partially substantiated Issue C. The PCO and DCM GE
shared blame on this issue. The government was entitled to price adjustments
under clause H-053 from contract F33657-84-C-2011, and clauses H-003,
H-005, and H-035 from contract F33657-94-D-2000. However, because of
poor oversight of the clauses by the DCM GE and poor communication
between the DCM GE and PCO, the adjustments were made later than they
should have been. In the first instance, $16,391,489 was recouped. The
adjustments were collected an average of 3 years, 5 months later than they
should have been. The cost of money lost in this instance was $4,196,494. In
the second instance, $33,772,376 was recouped. These adjustments were
collected an average of 9-1/2 months later than they should have been. The
cost of money lost in this instance was $1,274,803. The total lost opportunity
cost of money as a result of the inaction was $5,471,297.

Issue D. Procurement officials did not monitor contract clause H-001 from
contract F33657-94-D-2000, and, therefore failed to make the required offset to
each engine price as required by the clause. Clause H-001 states the following
information.

           Each Foreign Military Sales (FMS) F-16 install engine price in the
           pricing matrices contains $132,000 to cover premium for both direct
           and alternated offset required by H-012 Coproduction. If the
           international agreement mandating the use of this clause is eliminated
           or altered during the term of this contract then the applicable FMS
           customers will be entitled to a mutually agreeable equitable
           adjustment in unit price, if such elimination or alteration results in a
           decrease in the cost of performance of any part of the work.

The international agreement was significantly altered on October 26, 1994.
The foreign Governments conceivably should have received an equitable
adjustment as a result of the alteration of the international agreement.

Audit Results. We found some merit to Issue D. The PCO did not advise the
DCM GE of the change in the international agreement and allowed a 2-year
period to pass before a contract modification was issued to reflect the change in
the contract. The $132,000 per engine paid was for offset requirements over
and above those included in the cost and pricing data provided in support of the
domestic engines. Since the requirement for over and above was eliminated on


                                        14
October 26, 1994, DoD should have reacted more quickly to include the
change in the contract and request a cost impact analysis to determine whether
the contractor should have provided for an equitable adjustment for the 98
engines sold during 1994 to 1996. The PCO did not incorporate TA-17, the
new agreement eliminating the $132,000 premium until October 25, 1996.

Issue E. The PCO bought 24, F110-129 engines in 1994 on contract
F33657-88-C-2189 at a unit price of $4,125,000. In addition to the engine
price, the PCO paid a lot price for tooling costs. If the PCO had bought the 24
engines on contract F33657-94-D-2000, the unit price would have been
$3,501,738, which included the cost of tooling. Therefore, the PCO overpaid
$623,262 per unit for the 24 engines. The 1994 contract was negotiated in the
first quarter in of CY 1994. The second part of the allegation focused on
contract F33657-98-D-0019, where the PCO allowed competitive unit prices to
increase by 3 percent a year for the period 2002 through 2004. GEAE
established a goal for reducing material costs by 6 percent per year.

Audit Results. We found no merit to Issue E with respect to contracts
F33657-88-C-2189 and F33657-94-D-2000. The 24 engines were ordered on
contract F33657-88-C-2189 in CY 93 for delivery in CY 94. Procurement
officials could not delay buying the engines because a delay would have meant
that the engines would miss the dock-date at Lockheed Martin, and would
cause a 9-month break in production and raise prices for the 1994 contract.
Contract F33657-94-D-2000 was not awarded until April 1994. Therefore, the
24 engines were ordered on contract F33657-88-C-2189 in CY 1993 before
contract F33657-94-D-2000 was awarded. We also found no merit regarding
contract F33657-98-D-0019. The contract was awarded on a competitive basis,
so the 3 percent price increase was part of the competitive pricing.




                                   15
     Appendix C. Summary of Overpayments and Lost Opportunity Costs

                                                             Contract F33657-84-C-2011, Clause H-053
                                 Overpayment        Actual Time         Reasonable Time           Excess Time                        Opportunity
                 Year            Calculation        Outstanding1        Allowed For Recovery2     Outstanding3                       Cost4
                 1990            $1,170,703         9 years, 3 months   4 years, 5 months         4 years, 10 months                 $381,182
                 1991            $618,710           8 years, 3 months   3 years, 9 months         4 years, 6 months                  $185,830
                 1992            $1,037,283         7 years, 3 months   3 years, 1 month          4 years, 2 months                  $285,358
                 1993            $3,748,701         6 years, 3 months   2 years, 7 months         3 years, 8 months                  $894,653
                 1994            $296,363           5 years, 3 months   2 years, 1 month          3 years, 1 month                   $58,375
                  Total           $6,871,760                                                                                          $1,805,398

                                                             Contract F33657-94-D-2000, Clause H-035
                                 Overpayment        Actual Time         Reasonable Time            Excess Time                       Opportunity
16




                 Year            Calculation        Outstanding1        Allowed For Recovery2      Outstanding3                      Cost4
                 1994            $175,735           5 years, 2 months   2 years, 3 months          2 years, 11 months                $32,581
                 1995            $300,418           4 years, 2 months   2 years, 4 months          1 year, 10 months                 $33,947
                 1996            $642,576           3 years, 2 months   2 years, 3 months          11 months                         $35,342
                  Total           $1,118,729                                                                                          $101,870




     1
       The period from January 1 of the following year to the cash collection date.
     2
       The period from January 1 of the following year to the date the overhead rates for that year were finalized. The date the overhead rates were
        finalized is when the cash collection should have occurred.
     3
       The period from the date the overhead rates for that year were finalized to the cash collection date. This was the length of time for which it was
        unreasonable for the overpayments to remain uncollected.
     4
       Interest on overpayments calculated at 6 percent compounded annually for the excess time outstanding.
                                                      Contract F33657-94-D-2000, Clause H-003 (Turkey)
                                 Overpayment       Actual Time        Reasonable Time           Excess Time                        Opportunity
                 Year            Calculation       Outstanding5       Allowed For Recovery6     Outstanding5                       Cost4
                 1995            $3,825,000        4 years, 8 months  None                      4 years, 8 months                  $1,197,133
                 1996            $4,576,000        3 years, 8 months  None                      3 years, 8 months                  $1,092,093
                  Total           $8,401,000                                                                                        $2,289,226

                                                Contract F33657-94-D-2000, Clause H-003 (Other Than Turkey)
                                 Overpayment      Actual Time         Reasonable Time           Excess Time                        Opportunity
                 Year            Calculation      Outstanding         Allowed For Recovery      Outstanding                        Cost
                 1995            $1,679,000       1 year, 4 months    None                      1 year, 4 months                   $136,335
                 1996            $8,673,000       1 year, 2 months    None                      1 year, 2 months                   $612,314
                  Total           $10,352,000                                                                                       $748,649
17




     4
       Interest on overpayments calculated at 6 percent compounded annually for the excess time outstanding.
     5
       Period from July 1 of that year to the cash collection date. The overpayments on this clause should have been incorporated into the engine price at
        the time the engines were sold. For practical purposes, we assumed each engine was sold on July 1, the midpoint of the year, rather than compute
        the overpayment period separately for each individual engine.
     6
       Since the overpayments should have been incorporated into the engine price at the time the engines were sold, there was no reasonable period for
        the overpayments to be uncollected.
                                                            Contract F33657-94-D-2000, Clause H-005
                                Overpayment        Actual Time         Reasonable Time            Excess Time        Opportunity
                 Year           Calculation        Outstanding1        Allowed For Recovery7      Outstanding8       Cost4
                 1995           $2,872,514         10 months           3 months                   7 months           $100,538
                 1996           $14,073,061        8 months            3 months                   5 months           $351,827
                 1997           $584,136           1 year, 6 months    3 months                   1 year, 3 months   $44,336
                 1998           $5,890,665         4 month             3 months                   1 month            $29,453
                  Total          $23,420,376                                                                          $526,154

                  Total All
                  Contracts       $50,163,865                                                                         $5,471,297
18




     1
       The period from January 1 of the following year to the cash collection date.
     4
       Interest on the overpayments calculated at 6 percent compounded annually for the excess time outstanding.
     7
       The adjustments for this clause should have been made within three months after the end of the year.
     8
       The period from three months after the end of the year to the cash collection date.
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                        20
Defense Contract Management Agency
Comments




                21
     Final Report
      Reference




     Revised




     Revised




     Added
     Page 9




22
23
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Bruce A. Burton
Billy J. McCain, Jr.
David P. Goodykoontz
Chrispian M. Brake
Carol Brink-Meisser
